                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Air Quality Objectives
                     for the Baton Rouge
                     Ozone Nonattainment Area
                     Not Met Under EPA Agreement
                     2A-96694301 Awarded to the
                     Railroad Research Foundation
                     Report No. 13-R-0297                    June 20, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                             Michael Rickey
                                                 Kevin Collins
                                                 Larry Brannon
                                                 Iantha Maness




Abbreviations

CFR                Code of Federal Regulations
EPA                U.S. Environmental Protection Agency
KCS                Kansas City Southern Railway Company
OIG                Office of Inspector General
OMB                Office of Management and Budget
Recovery Act       American Recovery and Reinvestment Act of 2009




Hotline
To report fraud, waste, or abuse, contact us through one of the following methods:

email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
fax:       202-566-2599                                       Mailcode 2431T
online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              13-R-0297
                                                                                                         June 20, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Air Quality Objectives for the Baton Rouge Ozone
                                    Nonattainment Area Not Met Under EPA Agreement
Emissions from diesel exhaust       2A-96694301 Awarded to the Railroad Research Foundation
can lead to serious health
conditions like asthma and
allergies, and can worsen heart      What We Found
and lung disease, especially in
vulnerable populations such as      The Railroad Research Foundation has not complied with the requirements of
children and the elderly. These     cooperative agreement 2A-96694301. We identified the following noncompliance
emissions can also damage           issues:
plants, animals, crops, and
water resources. Under the                 The five repowered locomotives were not operating in the Baton Rouge
authority of the American                   area as originally proposed and expected by the EPA. As a result, the
Recovery and Reinvestment                   inhabitants in the Baton Rouge ozone nonattainment area were not
Act of 2009, the U.S.                       receiving the benefits of the lower diesel emissions expected by the EPA
Environmental Protection                    when it approved the project.
Agency awarded almost
$3 million to the Railroad                 Costs of $4,614 for various indirect activities under a service agreement
Research Foundation to reduce               were not allowable under federal cost principles and the terms of the
diesel emissions by repowering              agreement.
five locomotives in Baton
Rouge, Louisiana, an ozone                 Costs of $16,512 for the foundation’s indirect costs were not supported
nonattainment area.                         because the cooperative agreement did not authorize indirect costs for
                                            the entire project period.
Our objective was to determine
whether the Railroad Research
                                     Recommendations and Responses
Foundation used these funds to
fulfill its obligations under the
                                    We recommend that the regional administrator for Region 6:
terms of the agreement and
applicable laws and
                                        1. Recover federal funds of $2,904,578 unless the foundation provides a
regulations.
                                           verifiable and enforceable remedy to reduce diesel emissions in the
                                           Baton Rouge ozone nonattainment area, as required by the cooperative
This report addresses the
                                           agreement.
following EPA Goal or
Cross-Cutting Strategy:
                                    In the event that all federal funds are not recovered under the first
                                    recommendation, we recommend that the regional administrator for Region 6:
 Taking action on climate
  change and improving
                                        2. Recover the $4,614 claimed for unallowable other costs.
  air quality.
                                        3. Recover the excess indirect cost of $16,512, or consider funding the
                                           foundation’s indirect cost for the entire project period.
For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.   The foundation did not agree with the draft report’s recommendation to repay all
                                    federal funds, and proposed a possible remedy to achieve compliance with the
The full report is at:              cooperative agreement. The foundation agreed with the unallowable salary cost
www.epa.gov/oig/reports/2013/       but disagreed with the questioned indirect costs. EPA Region 6 agreed with our
20130620-13-R-0297.pdf              recommendations and will seek appropriate cost recoveries.
                      UNITED
                       UNITEDSTATES
                              STATESENVIRONMENTAL
                                     ENVIRONMENTALPROTECTION
                                                     PROTECTIONAGENCY
                                                                AGENCY
                                   WASHINGTON,
                                     WASHINGTON,D.C.
                                                 D.C.20460
                                                      20460

                                                                                    THE INSPECTOR GENERAL




                                             June 20, 2013

MEMORANDUM

SUBJECT:       Air Quality Objectives for the Baton Rouge Ozone Nonattainment Area Not Met
               Under EPA Agreement 2A-96694301 Awarded to the Railroad Research Foundation
               Report No. 13-R-0297

FROM:          Arthur A. Elkins Jr.

TO:            Ron Curry, Regional Administrator
               Region 6

This is our final report on the subject audit of cooperative agreement 2A-96694301 awarded to the
Railroad Research Foundation, Washington, D.C. We performed this site visit as part of our
responsibility under the Recovery Act. This report contains findings on noncompliance with cooperative
agreement terms and conditions and questions claimed costs as a result of this noncompliance.

This report represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision for resolution of the findings contained in this report before any formal resolution can be
completed with the recipient. Your proposed decision is due in 120 days, or on October 18, 2013.
To expedite the resolution process, please email an electronic version of your proposed management
decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting
on your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. We have no objection to the
further release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
Air Quality Objectives for the Baton Rouge Ozone                                                                          13-R-0297
Nonattainment Area Not Met Under EPA Agreement
2A-96694301 Awarded to the Railroad Research Foundation


                                  Table of Contents 


Chapters
   1    Independent Attestation Report........................................................................                    1


   2    Introduction ........................................................................................................     3


   3    Expected Benefits Not Being Achieved ...........................................................                          5


   4    Financial Results................................................................................................        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                       15 




Appendices
   A    Railroad Research Foundation Response to Draft Report ............................                                       16 


   B    Region 6 Response to Draft Report..................................................................                      22 


   C    Distribution .........................................................................................................   24 

                                  Chapter 1

                   Independent Attestation Report
            We have examined the Railroad Research Foundation’s compliance with the
            terms and conditions of the cooperative agreement 2A-96694301and the costs
            claimed on the Federal Financial Report, dated October 11, 2010. By accepting
            the funding provided through the cooperative agreement, the foundation has
            responsibility for complying with these requirements. Our responsibility is to
            express an opinion on the foundation’s compliance based on our examination.

            Our examination was conducted in accordance with generally accepted
            government auditing standards issued by the comptroller general of the United
            States and the attestation standards established by the American Institute of
            Certified Public Accountants. We examined, on a test basis, evidence supporting
            management’s assertion and performed such other procedures as we considered
            necessary in the circumstances. We believe that our examination provides a
            reasonable basis for our opinion.

            We contacted various representatives from the U.S. Environmental Protection
            Agency’s Region 6 to gather information on criteria relevant to the cooperative
            agreement; obtain an understanding of the proposed project; and gather
            information concerning the foundation’s performance. Specifically, we performed
            the following steps:

                  Reviewed the EPA’s project and cooperative agreement files.
                  Interviewed the EPA’s personnel to obtain an understanding of the
                   cooperative agreement.
                  Reviewed the original and revised applications associated with the award
                   of cooperative agreement 2A-96694301.
                  Reviewed cooperative agreement 2A-96694301 and its modifications.
                  Reviewed the foundation’s original and revised work plans.
                  Conducted interviews with EPA Region 6’s associate director for Air
                   Programs; EPA Region 6’s Diesel Emission Reduction Act coordinator;
                   and the grant management officer.

            We made site visits to the foundation’s office in Washington, D.C., and
            performed the following steps:

               	 Reviewed recipient cooperative agreement files and interviewed recipient
                  personnel to gain an understanding of the accounting system, internal
                  controls, costs reported under the cooperative agreement, and the work
                  performed under the cooperative agreement.
               	 Selected November 2010 activity reports to review the operating locations
                  of the repowered locomotives.


13-R-0297                                                                                     1
               	 On a test basis, reviewed costs reimbursed under the cooperative
                  agreement to determine whether the costs met the applicable Code of
                  Federal Regulations requirements under 40 CFR Parts 30 and 34,
                  2 CFR Parts 215 and 230, and the cooperative agreement.
                Obtained third party confirmation for the costs of the repower kits.

                Confirmed in-kind matching costs.

                Tested for compliance with Recovery Act requirements.


            We also reviewed:

               	 The foundation’s single audit reports for 2009 and 2010.
               	 A limited scope review of the foundation’s administrative and financial
                  management systems for managing the EPA’s funds under cooperative
                  agreement 2A-96694301.
               	 The foundation’s actions to address the recommendations in the limited
                  scope review.

            Our examination disclosed the following noncompliances with cooperative
            agreement requirements:

               	 The five locomotives repowered with Recovery Act funds were not
                  operating in the Baton Rouge, Louisiana, area as originally proposed and
                  expected by the EPA.
               	 Costs of $4,614 for various indirect activities under a service agreement
                  and excess wages were not allowable under federal cost principles and the
                  terms of the agreement.
               	 Costs of $16,512 for the foundation’s indirect costs were not supported
                  because the cooperative agreement did not authorize indirect costs for the
                  entire project period.

            In our opinion, because of the noncompliance items described above, the
            foundation has not complied with the requirements of cooperative agreement
            2A-96694301.



            Robert K. Adachi
            Director for Forensic Audits




13-R-0297                                                                                   2
                                  Chapter 2

                                  Introduction
Purpose
            The EPA Office of Inspector General conducted this review to determine whether
            the Railroad Research Foundation complied with the requirements, terms and
            conditions of cooperative agreement 2A-96694301 and all related laws and
            regulations.

Background
            The American Recovery and Reinvestment Act of 2009 appropriated $300 million
            for Diesel Emission Reduction Act grants. The diesel emission program was
            created under Title VII, Subtitle G, of the Energy Policy Act of 2005. This act
            authorized the EPA to fund programs to achieve significant reductions in diesel
            emissions in terms of tons of pollution produced and diesel emission exposures,
            particularly from fleets operating in areas designated by the EPA as poor air
            quality areas.

            On September 1, 2009, the EPA used Recovery Act funds to award cooperative
            agreement 2A-96694301 to the foundation under the National Clean Diesel
            Funding Assistance Program. This award authorized federal funds of $2,927,496
            to repower locomotives for the city of Baton Rouge, Louisiana, in accordance
            with the application, dated April 28, 2009, and all modifications and amendments.
            The total project costs were $3,659,370, which included the authorized federal
            funds and the recipient share of $731,874. The agreement was amended twice to
            extend the project period, and to allow indirect costs. The amended project period
            was September 1, 2009, to December 31, 2010.

            On December 15, 2009, the foundation submitted a revised application in support
            of a modified work plan to change the locomotive model being repowered. This
            change was necessary due to technical issues with the model originally proposed.
            The substitute locomotive model did not change the expected lower emissions or
            the project’s location. The EPA approved the change in the work plan on
            December 22, 2009, without amending the cooperative agreement.

            The foundation is a Washington, D.C., based 501(c)(3) non-profit organization
            established to undertake research, development and educational projects devoted
            to sustaining the safety, security and efficiency of the railroad industry. The
            foundation provided proposal development services, program and project
            management, federal regulation compliance, financial and technical reporting, and
            federal agency interface for sponsored projects. The foundation has received
            federal funds from the U.S. Department of Transportation’s Federal Railroad


13-R-0297                                                                                    3
            Administration, the U.S. Department of Homeland Security, and the EPA. During
            the cooperative agreement’s project period, the foundation had two employees.
            Subsequently, the foundation hired a senior program director as a third employee.

            The foundation is closely aligned with the Association of American Railroads.
            The association is a 501(c)(6) trade organization committed to ensuring that
            freight railroads operate the safest and most efficient, cost-effective and
            environmentally sound freight transportation system in the world. Association
            members operate over a 140,000-mile network in North America, and include the
            major freight railroads in the United States, Canada and Mexico, as well as
            Amtrak. The association works with elected officials and leaders in Washington,
            D.C., on critical transportation and related issues related to the freight rail
            industry.

            The foundation and the association were co-located, and the association provided
            financial, accounting, managerial and administrative support to the foundation.
            Based on the 2009 tax returns, 8 of 11 foundation officers and/or directors were
            compensated association officers. A management committee, which consisted of
            two association officers from the foundation’s Board of Directors, actively
            managed foundation business and supervised foundation employees. In July 2012,
            the foundation entered into an agreement to obtain independent accounting
            services from an outside firm.




13-R-0297                                                                                   4
                                  Chapter 3

            Expected Benefits Not Being Achieved
            The project’s location and the reduction of health risks due to lower emissions
            were important criteria for funding this project for the Baton Rouge
            nonattainment area. However, the five locomotives repowered with Recovery Act
            funds under the cooperative agreement were not operating in the Baton Rouge
            area, as originally proposed in the application and as required by the cooperative
            agreement. As a result, the inhabitants in the Baton Rouge ozone nonattainment
            area were not receiving the benefits of the lower diesel emissions expected by the
            EPA when it approved the project. Emissions from diesel exhaust can:

                  Lead to serious health conditions, such as asthma and allergies, and can
                   worsen health and lung disease.
                  Contribute to the production of smog, acid rain, and other adverse
                   conditions that can damage plants, animals, crops, and water resources.

            The five parishes that encompass the Baton Rouge nonattainment area—the only
            such designated area in Louisiana—has an estimated population of 739,013, or a
            little over 16 percent of the state’s total population. Reducing diesel emissions
            and providing benefits to the population in proximity to the Baton Rouge railroad
            operations were important objectives when the EPA approved funding for this
            project. Since the repowered locomotives were not operating in the Baton Rouge
            area, reduced emissions that resulted were not improving the air quality and
            reducing health risks in the heavily populated Baton Rouge nonattainment area.

Project Area Stated In Cooperative Agreement and Application
            The cooperative agreement states that the Railroad Research Foundation
            requested funds to repower locomotives in the city of Baton Rouge. The award
            was based on the April 28, 2009, application, including all modifications and
            amendments. The application clearly identified Baton Rouge as the area affected
            by the project. According to the application, the new engines would reduce NOx
            (mono-nitrogen oxides) and particulate matter by 46 percent over the old engines,
            which would reduce human exposure to potentially harmful diesel emissions.
            Further, the application states:

                   … repowering these units to much cleaner Tier 2 levels, KCS
                   [Kansas City Southern Railway Company] will dramatically
                   extend the locomotive useful lives and maximize the
                   environmental benefits to the surrounding communities for years to
                   come…. The Baton Rouge area is currently designated as a serious
                   nonattainment area for ozone…. There are residents in close



13-R-0297                                                                                     5
                   proximity to rail operations which would see an immediate
                   improvement in the reduction of emissions.

            The 1990 Clean Air Act Amendments recognized that reducing the precursor
            emissions that cause ozone – nitrogen oxides (NOx) and volatile organic
            compounds – was the primary method for assuring permanent ozone reductions.
            Ground level ozone, the most pervasive urban air pollutant, has been linked to
            respiratory illnesses and other serious public health concerns, such as asthma and
            heart disease.

            When breathed, particulate matter can accumulate in the respiratory system. Fine
            particulate matter is associated with such adverse health effects as heart and lung
            disease and increased respiratory disease, and symptoms such as asthma, decreased
            lung function, and even premature death. Also, particulate matter is a major cause of
            reduced visibility, and adversely impacts vegetation and ecosystems.

            The EPA relied on the information in the application and scored the project’s
            national programmatic priorities and regional significance high because of the
            benefits to the Baton Rouge area. Specifically, the EPA stated that the change
            from an unregulated standard to the Tier 2 standard would result in a huge
            reduction in emissions. Residents in the proximity of railroad operations in Baton
            Rouge would benefit greatly from the project. Further, NOx reductions were
            important for the Baton Rouge nonattainment area; reducing uncontrolled sources
            would advance efforts to come into attainment for the .075 parts per million ozone
            standard. The EPA gave the project the maximum number of points for a high
            population density with poor air quality.

            In November 2009, the foundation contacted the EPA to discuss the need to
            change the type of locomotive being repowered from the SD50 model to the
            GP40 model because of unforeseen technical problems. The EPA responded that
            in order to proceed under the current agreement, the foundation must meet two
            conditions:

               1.	 The change from the SD50 model to the GP40 model must result in
                   equivalent emission reductions to those stated in the original application.
               2.	 The reductions realized are in the same geographic area (that is, the 

                   different model locomotives that will receive the new engines must 

                   operate in the same geographic area as stated in the application). 


            In December 2009, the foundation submitted a locomotive change justification to
            repower the GP40 locomotive. Included in the justification was a letter, dated
            November 18, 2009, from the Kansas City Southern Railway Company which
            affirmed that the substitute locomotives would operate in the same service as
            originally proposed: “switching and local service in the Baton Rouge, LA area.”

            The foundation also submitted a revised Application for Federal Assistance,
            SF-424. In block 14, the foundation identified “City of Baton Rouge, East Baton


13-R-0297                                                                                           6
            Rouge Parish, LA” as the area affected by the project. The EPA approved the
            revised project on December 22, 2009.

Locomotives Not Operating in Non-Attainment Area
            Based upon records provided by the foundation, the repowered locomotives were
            not being used in the nonattainment area specified in the application. We
            reviewed the Equipment Event Activity report for the month of November 2010
            for each of the five repowered locomotives. These reports show the locomotives’
            daily locations and movements during the month. According to the reports, none
            of the trains operated in the Baton Rouge area during the month of November
            2010. All the locomotives were operating in Louisiana or Texas. The closest any
            of the GP40 locomotives traveled near Baton Rouge was about 100 miles; the
            furthest point from Baton Rouge was estimated at more than 400 miles. On
            February 27, 2012, the date that the November 2010 activity reports were printed
            for our review, two of the locomotives were in Mississippi, one was in Oklahoma,
            and one was in Bayou Pierre, Louisiana. The fifth locomotive was in Baton
            Rouge.

            Despite clear language in both agreements, KCS did not believe that it was
            required to operate the repowered locomotives in the Baton Rouge area after the
            project period expired on December 31, 2010. This conclusion was based on a
            response to a hypothetical question that the railroad obtained from the National
            Clean Diesel Campaign Helpline in October 2010.

            The cooperative agreement’s programmatic condition 12 states the following:

                   Recipient agrees that at the end of the project period the equipment
                   acquired under this assistance agreement will be subject to the
                   property disposition regulations at 40 CFR 30.34…. Specifically,
                   the Recipient is instructed to continue to use the equipment
                   purchased under this assistance agreement in the project or
                   program for which it was acquired for the remainder of its useful
                   life, whether or not the project or program continues to be
                   supported by federal funds … these disposition instructions are
                   applicable to assistance agreement recipients and any other third-
                   party recipients acquiring equipment under this award.

            All the cooperative agreement’s terms and conditions were incorporated into the
            agreement between the foundation and KCS in exhibit A. Further, this agreement,
            executed in January 2010, stated that the railroad was familiar with the
            requirements and obligations of the cooperative agreement and would abide by all
            such requirements and obligations.

            If KCS had questions regarding its obligations under the agreement with the
            foundation or the terms of the foundation’s cooperative agreement with the EPA,


13-R-0297                                                                                      7
                  it should have addressed those concerns directly with the foundation. The
                  response from the National Clean Diesel Campaign Helpline does not change the
                  requirements of the foundation’s agreement with the railroad1 or the EPA’s
                  cooperative agreement with the foundation. Consequently, the railroad is still
                  obligated to operate the repowered locomotives in the Baton Rouge area for the
                  useful life of the locomotive engines.

Environmental and Related Health Benefits Not Being Realized
                  Baton Rouge was one of 12 sites in the United States that measured
                  concentrations above the 2008 ozone standard in the 2006-2008 time period.2
                  Because the locomotives were not operating in the area as originally proposed, the
                  environmental and related human health benefits expected in Baton Rouge from
                  lower emissions were not being realized.

                  Emissions from diesel exhaust can lead to serious health conditions such as
                  asthma and allergies, and can worsen heart and lung disease, especially for
                  vulnerable populations such as children and the elderly. Diesel engines emit
                  particulate matter (soot), nitrogen oxides which contribute to the production of
                  ground-level ozone (smog) and acid rain, hydrocarbons, air toxics, and black
                  carbon. As previously noted, ground level ozone and particulate matter cause
                  serious human respiratory problems. Additionally, these emissions can damage
                  plants, animals, crops and water resources.

                  At the time the EPA awarded the cooperative agreement, the Baton Rouge area
                  was classified as a “moderate” 8-hour ozone nonattainment area based on the
                  1997 standard.3 In 2012, the EPA designated the Baton Rouge area as a
                  nonattainment area for the 2008 national ambient air quality standards for ozone.4
                  The Baton Rouge nonattainment area, which includes five parishes—East Baton
                  Rouge (including the city of Baton Rouge), West Baton Rouge, Iberville,
                  Ascension, and Livingston—was the only designated nonattainment area in the
                  state of Louisiana. The estimated population for these five parishes was 739,013,
                  or a little over 16 percent of the state’s total population.5

                  Reducing diesel emissions in a nonattainment area and providing benefits to the
                  population in proximity to railroad operations in Baton Rouge were important
                  objectives when the EPA approved funding for this project. This importance was
                  clearly emphasized when the EPA informed the foundation that it could substitute
                  a different locomotive model, provided the emission reductions remained the
                  same as originally proposed, and the substitute locomotives operated in the same

1
  Article 10 in the agreement between the foundation and the KCS states that changes or alterations to the agreement 

are not binding unless such changes are in writing and signed by both parties.

2
  Our Nation’s Air, Status and Trends Through 2008, EPA-454-R-09-002, February 2010. 

3
  73 Fed. Reg. 15087-15092 (March 21, 2008). 

4
  77 Fed. Reg. 30088, 30125 (May 21, 2012). 

5
  U.S. Census Bureau 2011estimate.



13-R-0297                                                                                                          8
            geographic location as originally proposed. Since the repowered locomotives
            were not operating in the Baton Rouge area, the reduced emissions resulting from
            this project were not improving the air quality and reducing health risks in the
            heavily populated Baton Rouge nonattainment area.

            After discussions with the foundation regarding this issue, KCS provided a letter,
            dated May 12, 2012, stating “repowered locomotives are based in Baton Rouge
            and are used for pick-up and delivery service in the Baton Rouge area and the
            surrounding communities we serve.” The locomotives would remain so for the
            10-year estimated life of the new engines. However, the locomotives would need
            to move to Shreveport, Louisiana, for periodic maintenance. The foundation also
            offered to monitor the engine locations for future years.

            The location and use of the repowered locomotives described in the May 12,
            2012, letter is different than earlier representations. The original application,
            dated April 28, 2009, stated that the project would maintain the ability to provide
            switching and local pickup and delivery services. Further, the application stated
            that residents in close proximity to the rail operations in the greater Baton Rouge
            area would see an immediate improvement in the reduction of emissions. The
            application seems clear—the repowered locomotives would operate in the greater
            Baton Rouge area performing switching and local services, and the public
            benefiting from the project would be those close to rail operations.

            Also, the revised application, dated December 15, 2009, clearly identifies the city
            of Baton Rouge, East Baton Rouge Parish, Louisiana, as the project location. In
            the letter accompanying the revised application and work plan, the railroad
            confirmed that it would use the repowered locomotives for “switching and local
            service in the Baton Rouge, LA area.”

            The description used in the May 12, 2012, letter is different than the original and
            revised applications. The repowered locomotives would be “based” in Baton
            Rouge, and used for pickup and delivery services in the Baton Rouge area and
            surrounding communities. There is no mention of switching activities. Further,
            the letter’s description of the area of operations—“the Baton Rouge area and
            surrounding communities”—is not necessarily the same as the city of Baton
            Rouge, Louisiana; the Baton Rouge area; or the city of Baton Rouge, East Baton
            Rouge Parish, Louisiana used in the applications for federal assistance.

Recommendations
            We recommend that the regional administrator for Region 6:

               1.	 Recover federal funds of $2,904,578 unless the foundation provides a
                   verifiable and enforceable remedy to reduce diesel emissions in the Baton
                   Rouge ozone nonattainment area, as required by the cooperative agreement.




13-R-0297                                                                                         9
Railroad Research Foundation Response

            The foundation disagreed with the recommendation because it believes the terms
            of the cooperative agreement have been complied with in part and it remains
            possible to comply with the terms in the future. The foundation believes the
            cooperative agreement’s expected program benefits can still be realized. The
            foundation stated that, since becoming aware in May 2012 that the repowered
            locomotives were sometimes operating outside the Baton Rouge area, the
            foundation has taken corrective action with KCS to ensure that the locomotives
            are operating in the Baton Rouge area. However, there is some confusion over
            what locations are within the Baton Rouge area for the purpose of the cooperative
            agreement.

            Subject to clarification of the operating location, the foundation stated the railroad
            will operate the locomotives in the defined area going forward through 2019 and
            possibly beyond, thereby achieving the expected environmental and related
            human health benefits. Rather than recover the full assistance amount of
            $2.9 million, the foundation believes that it would be more consistent with the
            goals of the program to work out an arrangement that would result in full
            compliance with the terms of the cooperative agreement. The foundation believes
            that it would be useful to discuss details of the proposed remedy with the EPA in
            order to achieve full benefits of the cooperative agreement. The proposed remedy
            would include operation of the repowered locomotives within the defined area for
            the remainder of the locomotives’ useful lives and the possible addition of time to
            account for any periods of past noncompliance.

Region 6 Response

            Region 6 agreed with the proposed recommendation. Region 6 said it will take
            into consideration any foundation provisions for quantifiable and enforceable
            measures that would ensure the reduction of diesel emissions in the Baton Rouge
            area when deciding cost recovery.

OIG Response

            The foundation acknowledged that, contrary to the requirements of the
            cooperative agreement, the repowered locomotives operated outside the Baton
            Rouge area at times until May 2012. Since that time, the foundation stated that the
            locomotives have operated within the Baton Rouge area and would continue to do
            so with some clarification. Since the foundation proposed a possible remedy to
            achieve compliance and the region indicated a willingness to consider such a
            proposal, we believe that direct discussions between the region and the foundation
            would provide the best opportunity of achieving the intended environmental and
            human health benefits. We have revised our recommendation accordingly.




13-R-0297                                                                                      10
                                    Chapter 4

                              Financial Results
            The Railroad Research Foundation submitted a revised final Federal Financial
            Report on October 11, 2011, and claimed federal funds of $2,904,578, and a
            recipient’s matching share of $731,874. Pursuant to an agreement with the
            foundation, KCS funded the required match by partially paying for the GP40
            repower kits for the five locomotives included under the cooperative agreement.
            The confirmed cost for the five repower kits was $4,103,615, of which KCS paid
            $1,266,119. The balance of the kit cost—$2,837,496—was paid with federal
            funds.

            We reviewed the claimed costs and identified unallowable costs of $4,614, and
            unsupported costs of $16,512. The results of our examination are detailed in
            table 1 and the accompanying notes.

            Table 1: Schedule of costs claimed and questioned
                                                      Questioned Costs
                   Category          Claimed     Unallowable Unsupported              Notes
             Salaries                   $21,830
             Fringe                        6,279                                        1
             Travel                        2,054
             Contractual:
                KCS                   2,837,496
                Maximus                    4,739                                        2
             Less prior questioned
             costs for Maximus           (2,292)                                        2
             Other                       11,304        $4,614                         3a, b
             Indirect costs               23,168                   $16,512             4

             Federal share              2,904,578          $4,614         $16,512
             Matching                     731,874
             Total project costs       $3,636,452
            Source: OIG analysis.


            Note 1. Fringe Benefits

            The foundation invoiced $6,279 for fringe benefits. This amount is more than the
            $3,611 reported on the final Federal Financial Report, dated October 11, 2011.
            Since the amount invoiced was less than amount budgeted by the EPA and less
            than the amount derived using the negotiated rate agreement, we did not question
            any costs.




13-R-0297                                                                                   11
            Note 2. Prior Question Costs

            The foundation claimed $4,739 for interim grant and contract management
            services under a consulting agreement with Maximus. An EPA administrative and
            financial monitoring report, dated July 2011, questioned $2,292 because the
            hourly rate paid to consultants exceeded the maximum allowable under EPA
            regulations. The foundation repaid the questioned amount on August 2011.

            Note 3. Other Costs - Association of American Railroads

            The foundation claimed $11,304 for accounting, legal and grants management
            services provided by the Association of American Railroads under a service
            agreement as follows:

            Table 2: Other costs claimed
                                    Claimed         Unallowable          Note
             Salaries                   $6,125              $830          a
             Indirect costs              3,784             3,784          b
             Travel                      1,395                  0
             Totals                    $11,304            $4,614
            Source: OIG analysis.

            Since the two organizations were under common control, the agreement did not
            meet the EPA’s procurement standards at 40 CFR § 30.42 and 30.43. However,
            association employees did provide necessary services under the cooperative
            agreement. Direct salaries and travel costs charged to the agreement were
            supported by adequate documentation. Therefore, direct salaries and travel costs
            for association employees met federal cost principles and, except for the excess
            costs discussed in note 3a, are allowable.

            a.	 The foundation claimed $830 for two association employees whose effective
                hourly labor rates exceeded the maximum allowed for consultants under the
                cooperative agreement. Section 25 of the cooperative agreement’s
                administrative conditions limited compensation to the maximum daily rate for
                Level IV of the Executive Schedule. This requirement is also contained in
                EPA’s regulations at 40 CFR § 30.27(b). This limitation applies because the
                foundation did not follow the EPA’s procurement standards when obtaining
                the association services. The questioned cost is the difference between the
                amounts claimed for the two employees and the amounts allowed.

            b. 	 The foundation claimed $3,784 for fringe benefits, occupancy, the president’s
                 office, and administration based on various percentage rates applied to direct
                 salaries. These rates were not supported by an indirect cost rate agreement
                 with a federal agency. Title 2 CFR Part 230 – Cost Principles for Non-Profit
                 Organizations (Office of Management and Budget Circular A-122),
                 Appendix A, General Principles, A.2.g, states that a cost must be adequately


13-R-0297                                                                                    12
               documented to be allowable. Since the association’s indirect cost rates were
               not supported by a federal rate agreement, the costs are not adequately
               supported and do not meet general principles for allowable costs. In addition,
               paragraph 4 of the cooperative agreement’s administrative conditions states
               that management fees or similar charges in excess of direct costs and
               approved indirect cost rates are not allowable. Accordingly, costs of $3,784
               based on unsupported indirect cost rates are not allowable.

            Note 4. Indirect Costs

            The foundation claimed indirect costs of $23,168 ($22,345 indirect costs and
            $823 occupancy costs). On invoice numbers 0001 through 0007, for costs
            incurred from August 17, 2009 through June 27, 2010, the foundation included
            fringe benefits and occupancy as part of the claimed salary costs. Beginning with
            invoice number 0008, salary, fringe benefits and indirect costs were identified
            separately.

            On April 12, 2011, the EPA amended the cooperative agreement to authorize an
            indirect rate of 150 percent applied to direct salaries and wages for the period
            beginning July 1, 2010, through December 31, 2010, which was the last 6 months
            of the project period. According to the agreement’s amended budget, the
            estimated indirect cost for the last 6 months of the project period was $41,853.

            Based on this amendment, the maximum allowable indirect cost was $6,656. The
            allowable amount was determined by multiplying the direct salaries of $4,437 for
            the last 6 months of the project by the authorized rate of 150 percent. The
            difference between the amount claimed and the amount allowed is $16,512. This
            amount is not allowable because of the limited time period specified in the
            amended agreement. However, the total indirect cost claimed—$23,168—is less
            than the budgeted amount of $41,853, and only 106 percent of the total direct
            salaries.

Recommendations

            In the event that all federal funds are not recovered under recommendation 1, we
            recommend that the regional administrator for Region 6:

                   2.	 Recover the $4,614 claimed for unallowable other costs.

                   3.	 Recover the excess indirect cost of $16,512, or consider funding the
                       foundation’s indirect costs for the entire project period.

Railroad Research Foundation Response
            The foundation agreed to repay the $830 claimed for the two association employees
            in excess of the maximum daily rates allowed. However, the foundation disagreed


13-R-0297                                                                                     13
            with the recommendations to recover indirect costs for the foundation and the
            association.

            The foundation did not agree that the association’s indirect cost required a federally
            approved indirect cost rate agreement to be allowable under OMB Circular A-122,
            as long as the costs are reasonable, adequately documented, and treated consistently
            with other costs incurred for the same purpose in like circumstances. Regarding the
            foundation’s indirect costs, the foundation stated that it had a federally negotiated
            indirect cost rate agreement applicable to the cooperative agreement period of
            performance. The foundation believes that when the EPA modified the agreement
            to authorize indirect costs, it should have authorized the costs for the entire project
            period, and not just the last 6 months.

Region 6 Response
            The region agreed with the recommendations to recover $4,614 and $16,512,
            respectively.

OIG Comments

            We disagree with the foundation’s statement that indirect costs charged by the
            association are allowable because indirect costs do not require a federally approved
            rate agreement to be allowable under OMB Circular A-122. As noted in the
            foundation’s response, an allowable cost must be adequately documented. For
            indirect costs, 2 CFR Part 230 – Cost Principles for Non-Profit Organizations
            (OMB Circular A-122), Appendix A, General Principles, E.1.f, defines an indirect
            cost proposal as documentation prepared by an organization to substantiate its
            claim for the reimbursement of indirect costs. This proposal provides the basis for
            the review and negotiation leading to the establishment of an organization’s
            indirect cost rate. Paragraph E.2.g states that the results of each negotiation shall be
            formalized in a written agreement between the cognizant agency and the non-profit
            organization. Since this required documentation was not provided, the association’s
            indirect costs were not adequately documented.

            With regard to the foundation’s indirect costs, we reviewed the October 27, 2010
            approved indirect cost negotiated agreement covering the final rates for calendar
            years 2008 and 2009 and provisional rates for 2010. The foundation’s response
            included the October 16, 2012 approved indirect cost negotiated agreement (see
            appendix A) that provides the final rates for calendar years 2010 and 2011. We
            did not question the $16,512 because of the lack of a negotiated indirect cost
            agreement but because the cooperative agreement only authorized reimbursement
            of indirect costs for the period July 1, 2010, through December 31, 2010.
            Therefore, indirect costs incurred and claimed outside the cooperative
            agreement’s authorized period are not eligible for reimbursement under the
            agreement and must be repaid unless the EPA modifies the cooperative
            agreement.


13-R-0297                                                                                       14
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                               Planned
 Rec.      Page                                                                                               Completion   Claimed     Agreed-To
 No.        No.                         Subject                           Status1      Action Official           Date      Amount       Amount

  1         9     Recover federal funds of $2,904,578 unless the            U       Regional Administrator,                   $2,905
                  foundation provides a verifiable and enforceable                        Region 6
                  remedy to reduce diesel emissions in the Baton
                  Rouge ozone nonattainment area, as required by
                  the cooperative agreement.

  2         13    In the event that all federal funds are not recovered     U       Regional Administrator,                      $5
                  under recommendation 1, recover the $4,614                              Region 6
                  claimed for unallowable other costs.

  3         13    In the event that all federal funds are not recovered     U       Regional Administrator,                      $17
                  under recommendation 1, recover the excess                              Region 6
                  indirect cost of $16,512, or consider funding the
                  foundation’s indirect costs for the entire project
                  period.




      1	    O = recommendation is open with agreed-to corrective actions pending
            C = recommendation is closed with all agreed-to actions completed
            U = recommendation is unresolved with resolution efforts in progress




13-R-0297                                                                                                                                     15
                                                                                    Appendix A

            Railroad Research Foundation Response
                         to Draft Report
April 9, 2013

John Trefry, OIG
USEPA Headquarters
Ariel Rios Building
1200 Pennsylvania Avenue, N.W.
Mail Code: 2421T
Washington, DC 20460

Re: Response to Examination of Costs and Compliance – Cooperative Agreement 2A-96694301
Awarded to the Railroad Research Foundation, Project No. OA-FY12-0198

Dear Mr. Trefry:

The Railroad Research Foundation (RRF) appreciates the opportunity to respond to the U.S.
Environmental Protection Agency Office of Inspector General’s draft report of February 25,
2013, entitled Examination of Costs and Compliance – Cooperative Agreement 2A-96694301
(EPA-OIG Project No. OA-FY12-0198) awarded to the Railroad Research Foundation (Draft
Report). The Draft Report states that the RRF did not comply with the above-referenced
Cooperative Agreement, primarily because the five locomotives repowered with funds granted
under the Cooperative Agreement were not operated in the Baton Rouge, Louisiana area. The
Draft Report recommends that EPA seek to recover $2,904,758, the full amount funded under
the Cooperative Agreement. As further explained below, the RRF disagrees with the
recommended remedy because (1) to date, the terms of the Cooperative Agreement have been
complied with in part; and (2) it remains possible for RRF to comply fully with the terms of the
Cooperative Agreement and for the benefits of the program under which the grant was awarded
to be fully realized. RRF has been and is committed to full compliance in the future and has
complied with all the terms and conditions under this award since RRF was first made aware of
an issue with the location of the repowered locomotives and took corrective action with its
subrecipient, KCSR, since May of 2012.

In September, 2009, EPA funded 80% of the total project cost and made an award to the RRF of
$2,927,496 under the National Clean Diesel Funding Assistance Program. The additional 20%
of project cost included a recipient contribution of $731,847. The funds awarded were to be used
to repower five diesel locomotives. The purpose of the program was to reduce diesel emissions
and improve air quality by operating locomotives which are more fuel efficient, meet more
stringent air emission requirements, and include automatic engine start-stop systems. In
December, 2009, a changed work plan was approved for the purpose of substituting a different
locomotive model for the model proposed in the original application. The award also was
amended twice to allow indirect costs and to extend the project period.



13-R-0297                                                                                      16
In January, 2010, RRF entered into a subcontract with the Kansas City Southern Railway
Company (KCSR), which owns and operates the locomotives that were to be repowered. Under
the subcontract between KCSR and RRF, KCSR received funding in the amount of $2,837, 496,
and was to comply with all the applicable terms of the Cooperative Agreement and applicable
federal regulations.

The relevant documents reference the project location as the Baton Rouge, Louisiana area. The
Draft Report further states that the repowered locomotives “were not operating in the Baton
Rouge, Louisiana area, as originally proposed in the application and as required by the
cooperative agreement” and that, therefore, “the environmental and related human health
benefits expected in Baton Rouge from lower emissions were not being realized.” The Draft
Report takes the position that KCS was, and remains, “obligated to operate the repowered
locomotives in the Baton Rouge area for the useful life of the locomotive engines.”
RRF acknowledges that since the locomotives were repowered, they have operated outside of the
Baton Rouge area at times. However, they have also operated within that area for part of the
time. Specifically, since May 2012, KCS has advised RRF that the locomotives have been
operated in locations that fall within the Baton Rouge area. (RRF can provide further detail on
the post-May 2012 operations if necessary). Moreover, there is some confusion over what
locations in KCS’s area of operations are within the Baton Rouge area for the purpose of the
Cooperative Agreement.

The useful life of the locomotives will extend into the future for many more years. Subject to
discussion regarding clarification to the Cooperative Agreement with respect to the area in which
the locomotives are to be operated, RRF and KCS are willing to commit that, other than for
required maintenance, which will occur at a different location, the locomotives will be operated
in the defined area going forward for the remainder of their useful lives, which is currently
expected to end in 2019. Additionally, if the locomotives are rebuilt such that their useful lives
extend past 2019, RRF and KCS are willing to continue to operate the locomotives in the defined
area beyond that time to the extent necessary to make up for any time prior to May, 2012 when
the locomotives were not being operated in the defined area. If the locomotives are operated in
the defined area going forward, as proposed, much of the expected environmental and related
human health benefits from lower emissions will, in fact, be achieved. Thus, inasmuch as the
full period of performance has not run, and it remains possible to comply with the provisions of
the Cooperative Agreement, thereby achieving its purpose, it is not appropriate for EPA to seek
to recover the full grant amount of over $2.9 million. RRF believes that rather than recommend
EPA take such an action, it would be more consistent with the goals of the program to work out
an arrangement that would result in full compliance with the terms of the Cooperative
Agreement. Among matters that should be clarified under such an arrangement is agreement
about what locations constitute the defined area to assure compliance going forward.

The RRF believes that in order to work out the details of its proposed remedy—operation of the
repowered locomotives within the defined area for the remainder of the locomotives’ useful
lives, with possible additional time to account for any periods of past noncompliance—it would
be useful to discuss this matter directly with EPA in order to determine how best to achieve the
full benefits of the program.




13-R-0297                                                                                      17
This discussion would include agreement on a definition of the area where the locomotives are to
be operated so there will be no confusion over where the locomotives are to be operated going
forward.

The Draft Report also found that certain RRF indirect costs charged to the project were not
allowable in three areas.

1. The Draft Report recommends recovery of $16,512 in indirect costs because the Cooperative
Agreement did not authorize indirect costs for the entire project period, noting that an
amendment authorizing an indirect rate of 150% applied only to the last six months of the project
period, July 1, 2010 through December 31, 2010. Thus, the Draft Report recommends
disallowing indirect costs for the prior period. RRF takes issue with this recommendation.
The RRF had received a negotiated agreement issued by the Federal Railroad Administration
(the cognizant agency) dated October 27, 2010, and a provisional rate was issued for the period
01/01/2010 to 12/31/2010 (a copy is attached). This agreement allows an IDC rate of 216.8%
even though RRF has charged only 150%. This agreement constitutes authorization of indirect
costs for RRF and should have been applied to the Cooperative Agreement with EPA during the
entire period of the project. RRF, in fact, incurred indirect costs for the entire project period and
the amendment with EPA should have covered the entire period, not just the last six months.
RRF is requesting a retro-active amendment to the EPA Cooperative Agreement to cover the
entire period. Disallowance of all but the last 6 months of IDC recovery would represents a
significant loss to RRF in cost recovery. OIG acknowledges this unfairness by recommending as
an alternative to recovery of the $16,512 that EPA “consider funding the Foundation’s indirect
cost for the entire project period.” Therefore, RRF respectfully requests that OIG withdraw its
recommendation that EPA seek to recover the $16,512 in indirect cost.

2. EPA regulation 40 CFR 30.27(b), limits the maximum daily salary rate paid to subcontractors
to the Level IV of the Executive Schedule. In accordance with this regulation the OIG has
determined $830 of salary paid for two employees of the Association of American Railroads
(AAR), which provided services as part of the project, to have exceeded the maximum allowed
rate for consultants under the Cooperative Agreement. Though the services rendered were
determined to be allowable under procurement standards 40 CFR 30.42 and 30.43, this limitation
applies. The RRF has requested that AAR reimburse $830 to RRF which would be repaid to the
EPA for this questioned costs.
3. The AAR charged RRF, and RRF claimed $3,784 for the AAR’s indirect cost. However, OIG
found that the AAR’s indirect cost rates were not supported by a federal rate agreement, and
therefore do not meet general principles for allowable costs.

RRF disagrees with this finding. The indirect costs charged as a percentage of direct salary,
which the Draft Report has already determined to be supported by adequate documentation and
to meet federal cost principles, do not require a federal approved indirect cost rate agreement to
meet the criteria to be treated as allowable costs as defined under OMB Circular A-122, Cost
Principles for Not for Profit Organizations. Based on guidance contained in OMB Circular A-
122, for a cost to be allowable it must be reasonable, adequately documented and treated
consistently with other costs incurred for the same purpose in like circumstances. RRF has
reviewed the AAR’s methodology of identifying and developing an indirect cost methodology



13-R-0297                                                                                         18
charged on the basis of direct labor hours incurred. RRF believes indirect costs charged against
direct labor hours incurred were reasonable, adequately supported and documented and were
treated consistently with other costs incurred for the same purpose, and therefore were properly
claimed. Further, the AAR’s expenditures of federal funding is below the $300,000 threshold
required for federal audits as set by OMB Circular A-133, Audits of State, Local Government
and Non Profit Organizations, Subpart B, paragraph .200b, and further supports that the AAR is
within the federal regulations in terms of requirements for supporting costs.

To discuss further or for more information, you may contact me at 202-639-2118 or by email at
jmarsh@railroadresearch.org.

Best Regards,


Jeffrey D. Marsh
Vice President, Treasurer and Director

Cc: 	Edward Hamberger, President Board of Directors
    Robert VanderClute, Vice President and Director
    Sharon Stewart Cole, PhD., Sr. Program Director
    Dan Saphire, Legal Counsel

Attachment                                




13-R-0297                                                                                      19
                             NON-PROFIT ORGANIZATION 

                       INDIRECT COST NEGOTIATED AGREEMENT



 Name:                                             Date: October 16, 2012

 Railroad Research Foundation                      Filing Ref: This agreement replaces the agreement
 425 3rd Street, SW, Suite 910                     dated March 19,2012
 Washington, DC 20024


The indirect cost rate(s) contained herein is for use in grants and contracts with the U. S. Department of
Transportation and other Federal agencies, subject to the limitations contained in Section II of this
agreement:

                                         SECTION I: RATES


Overhead Rate

                        Effective Period
     Type             From             To                 *Rate            Location        Applicable to
     Final          01/01/2008        12/31/2008         455.60%              All          All Programs
     Final          01/01/2009        12/31/2009         216.80%              All          All Programs
     Final          01/01/2010        12/31/2010         201.97%              All          All Programs
     Final          01/01/2011        12/31/2011         238.11%              All          All Programs

*Base: Total direct salaries and wages, including fringe benefits.



Fringe Benefit Rate

                        Effective Period
     Type             From             To                 *Rate            Location        Applicable to
     Final          01/01/2008        12/31/2008          30.47%              All          All Programs
     Final          01/01/2009        12/31/2009          35.24%              All          All Programs
     Final          01/01/2010        12/31/2010          32.21%              All          All Programs
     Final          01/01/2011        12/31/2011          27.37%              All          All Programs

*Base: Total direct salaries and wages




13-R-0297                                                                                              20
                                        SECTION II: GENERAL


A. 	LIMITATIONS: Use of the rate(s) contained in this agreement is subject to any statutory or
   administrative limitations and is applicable to a given grant or contract only to the extent that funds
   are available. Acceptance of the rate(s) agreed to herein is predicated on this conditions:
   (I) that no costs other than those incurred by the grantee/contractor were included in its indirect cost
   pool as finally accepted and that such costs are legal obligations of the grantee/contractor and
   allowable under the governing cost principles; (2) that the same costs that have been treated as
   indirect costs are not claimed as direct costs; (3) that similar types of costs have been accorded
   consistent accounting treatment; and (4) that the information provided by the grantee/contractor
   which was used as a basis for acceptance of the rate(s) agreed to herein is not subsequently found to
   be materially incomplete or inaccurate.

B. 	 ACCOUNTING CHANGES: The rate(s) contained in this agreement are based on the accounting
     system in effect at the time the proposal was prepared and the agreement was negotiated. Changes to
     the method of accounting for costs which affect the amount of reimbursement resulting from the use
     of this rate(s) require the prior approval of the office responsible for negotiating the rate(s) on behalf
     of the Government. Such changes include but are not limited to changes in the charging of a particular
     type of costs from indirect to direct. Failure to obtain such approval may result in subsequent cost
     disallowances.

C. 	REIMBURSEMENT: Indirect cost reimbursement on all awards will be determined based upon the
    indirect cost rates established for the fiscal period in which the applicable direct expenditures are
    incurred.

D. NOTIFICATION TO FEDERAL AGENCIES: Copies of this document may be provided to
   other Federal offices as a means of notifying them of the agreement contained herein.

E. 	SPECIAL REMARKS: Federal programs currently reimbursing indirect costs to this organization
    by means other than the rate(s) cited in this agreement should be credited for such costs and the
    applicable rate cited herein applies to the appropriate base to identify the proper amount of indirect
    cost allocated to the program.

   US Department of Transportation                        Railroad Research Foundation
   Federal Railroad Administration

   /s/ Rebecca Pennington                                 /s/ Sharon Cole
   Signature: Rebecca Pennington                          Signature: Sharon Stewart Cole, PhD
   Chief Financial Officer                                Sr. Program Director
   Office of Railroad Financial Management
                                                          /s/ Jeffery D. Marsh
   Date: November 7, 2012                                 Name and Title: Jeffery D. Marsh
                                                          Vice President and Treasurer

                                                          Date: October 18, 2012
   Negotiated By: Jennifer Capps
                 (202) 493-0112



13-R-0297                                                                                                    21
                                                                                          Appendix B

                  Region 6 Response to Draft Report


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION 6

                                 1445 ROSS AVENUE, SUITE 1200 

                                  DALLAS, TEXAS 75202 – 2733 

                                                                       Office of the Regional Administrator




                                         April 5, 2013


MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report-Examination of Costs and
          Compliance – Cooperative Agreement 2A-96694301 Awarded to the Railroad
          Research Foundation dated February 25, 2013

FROM: 	       Ron Curry
              Regional Administrator, Region 6

TO:    	      Robert K. Adachi, Jr
              Director of Forensic Audits
              Office of the Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations. We have provided high-level intended corrective actions and
estimated completion dates to the extent we can for those report recommendations with which
the agency agrees.
AGENCY’S OVERALL POSITION
Region 6 agrees with the Office of the Inspector General’s recommendations. Additionally,
reducing diesel emissions for the Baton Rouge nonattainment area and providing benefits to the
population in proximity to railroad operations were important considerations when approving
funding of the project. If the Railroad Research Foundation (RRF) were to provide quantifiable
and enforceable measures to ensure the fulfillment of the grant requirements whereby the
subsequent emissions reductions would benefit the Baton Rouge nonattainment area, Region 6
would be willing to consider the measures offered by RRF in deciding whether all or a portion
of the federal share in recommendation 1 will be recovered.




13-R-0297                                                                                              22
    AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS


No. Recommendation                       High-Level Intended Correction Action(s)      Estimated Completion
1   Recover the federal share of         Region 6 will disallow and recover the        6 months after final
    $2,904,758                           federal share in accordance with 40 CFR       report
                                         30 unless RRF can ensure grant is fulfilled
                                         by operating in the Baton Rouge area.

In the event that all federal funds are not recovered under Recommendation 1, Region 6 will

2     Recover the $4,614 claimed for     Region 6 will disallow and recover the        6 months after final
      unallowable other costs            federal share in accordance with 40 CFR       report
                                         30.62.
3     Recover the excess indirect cost   Region 6 will disallow and recover the        6 months after final
      of $16,512, or consider funding    federal share in accordance with 40 CFR       report
      the Foundation’s indirect cost     30.62.
      for the entire project period

    CONTACT INFORMATION

    If you have any questions regarding this response, please contact Thomas Diggs, Associate
    Director of the Air Programs Branch, Multimedia Planning and Permitting Division at (214) 665-
    3102 or Gloria Vaughn of his staff at 214-665-7535.


    cc: 	   Michael Rickey, Office of the Inspector General
            John Trefry, Office of the Inspector General

    bcc: 	 David Garcia, Acting Director, Multimedia Permitting
           Thomas Diggs, Associate Director, Air Programs
           Mary Stanton, Air State and Tribal Operations
           Ashley Williams, Air State and Tribal Operations
           Missy Milbeck, Comptroller
           Susan Jenkins, Audit Liaison
           Donna R. Miller, Grants Management Officer
           Dannell Brown, Grants Management
           Paul Witthoeft, ORC
           Gloria Vaughn, Air Programs




    13-R-0297                                                                                     23
                                                                              Appendix C

                                   Distribution
Regional Administrator, Region 6 

Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Director, Grants and Interagency Agreements Management Division, Office of Administration
        and Resources Management
Deputy Regional Administrator, Region 6 

Director, Office of External Affairs, Region 6 

Office of the Regional Comptroller, Region 6 

Director, Multimedia Planning and Permitting Division, Region 6 

Associate Director for Air, Region 6 

Audit Follow-Up Coordinator, Region 6 

President, Railroad Research Foundation




13-R-0297                                                                                   24
